No. 20-1010

INTHE

~upreme Qtourt of toe Wniteb ~tate%
DED RRA.Nx:8URGAJ

Petitioner
V.

ALEJANDRO MAYORK.AS,
U.S. SECRETARY OF HOMELAND SECURITY, ET AL.

Respondents

CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and that the Brief
of Rapid Defense Network and Justice Action Center contains 6,000 words and complies with the
word limitation established by Rule 33. l(g)(x) of the Rule of this Court.
Dated: February 26, 2021

